                                                     SENSITIVE BUT UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General


                              Audit of Department of State Access Controls
                                         for Major Applications

                                         Report Number AUD-IT-12-44, September 2012




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State of the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                    SENSITIVE BUT UNCLASSIFIED
                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                        PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the ofnce, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                         SENSITIVE BUT UNCLASSIFIED




Acronyms
AIS        automated information system
CA         Bureau of Consular Affairs
DS         Bureau of Diplomatic Security
FAM        Foreign Affairs Manual
IRM        Bureau of Information Resource Management
ISSO       Information Systems Security Officer
IT         information technology
ITAB       Information Technology Asset Baseline
NCD        Net-Centric Diplomacy
OIG        Office of Inspector General
SMART-C    Classified State Messaging and Archive Retrieval Toolset




                         SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                   (U) Table of Contents
(U) Section                                                                                                                      (U) Page

(U) Executive Summary ..................................................................................................................1

(U) Background…. ..........................................................................................................................3

(U) Objective……. ..........................................................................................................................5

(U) Audit Results ............................................................................................................................5
      (SBU) Finding A. Protection of Sensitive Cables Remains a Challenge ...........................6
      (b) (5)                                                                                                                               10
      (SBU) Finding C. Account Management Procedures Need Strengthening ......................11
      (SBU) Finding D. System Administrator Activities Are Not Monitored Effectively ......15
      (SBU) Finding E. Patch Management Program for Databases Is Not Effective .............16

(U) List of Recommendations ........................................................................................................20

(U) Appendices
      A. (U) Scope and Methodology ........................................................................................22
      B. (U) Office of Inspector General Reports Related to Audit ..........................................31
      C. (SBU) Proposed Net-Centric Diplomacy Security Enhancements ..............................33
      D. (SBU) Bureau of Information Resource Management Response ................................34
      E. (SBU) Bureau of Diplomatic Security Response .........................................................40
      F. (SBU) Bureau of Consular Affairs Response ...............................................................43
      G. (U) Bureau of Human Resource Response ..................................................................44

(U) Major Contributors to This Report ..........................................................................................46




                                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


                                       (U) Executive Summary
        (U) Access controls consist of physical and logical controls that are intended to provide
reasonable assurance that system resources such as hardware, data files, application programs,
and underlying operating systems are protected against unauthorized access, operation,
modification, disclosure, loss, or impairment. Physical access controls ensure that system assets
are physically protected from unauthorized access, and logical access controls provide assurance
that only authorized users may access system data and programs. Access controls on the major
applications and databases that store sensitive information within the Department of State
(Department) must be suitably robust to prevent unauthorized access.

       (U) The objective of this audit was to determine the effectiveness of logical access
controls pertaining to selected major applications used by the Department. Specifically, the audit
was to determine whether logical access controls were in place and were operating effectively.

        (SBU) The Office of Inspector General (OIG) found that the Department had made
overall progress toward implementing effective logical access controls for major applications.
However, during the audit, OIG found five weaknesses pertaining to logical access controls in
the applications and related databases reviewed both domestically and at the three embassies
visited: Embassy Buenos Aires, Argentina; Embassy Madrid, Spain; and Embassy Accra, Ghana.
These five weaknesses are described as follows:

       (SBU) Protection of Sensitive Department Cables

    (SBU) Two years after the unauthorized release of sensitive cables to the public through the
                             (
    Wikileaks organization,b (b) (5)                                                      cable-
    related applications such) as Net-Centric Diplomacy (NCD) and Classified State Messaging
    and Archive Retrieval T(o olset (SMART-C). Progress in addressing the NCD weaknesses
    that made the Wikileaks5incident possible has been very slow.
                               )
       (U) Vulnerability Scanning

    (SBU) No formal vulnerability scanning process existed for databases as part of the risk
    management strategy, even though important operations such as consular affairs and
    financial management routinely rely on databases to support operations. Further, the Bureau
    of Diplomatic Security (DS) had not procured database scanning software necessary to
    accomplish this task. Lack of a database vulnerability scanning process weakens the
    Department’s ability to proactively identify and remediate database security configuration
    weaknesses before they are exploited.




1
 (U) The alleged copying and release of thousands of Department cables to the public was accomplished by the
Wikileaks organization.

                                                1
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

      (U) Account Management

       (SBU) OIG identified account management deficiencies. Specifically, requirements in
   the Foreign Affairs Manual (FAM) (b) (5)
                                                                                        were
   not always being followed. Moreover, system administrators did not perform periodic
   account revalidation, which was contrary to FAM requirements as well as deleterious to
   system security.

      (U) Oversight of System Administrator Activities

       (SBU) OIG found that audit logs for all of the applications audited were not reviewed
   periodically. OIG learned that because of limited staff, there was an operational need to
   provide all system administrators with the same permissions to enable other system
   administrators to perform the tasks necessary to continue operations when other system
   administrators are not available. (b) (5)




      (U) Patch Management

       (SBU) OIG found that database administrators were not following the Department’s
   patch management policies for its databases. (b) (5)

                                                              Patch management is an important
   factor in mitigating database vulnerability risks, and up-to-date patch installation can help
   allay these risks.

       (SBU) Weaknesses in logical access controls render sensitive information in Department
applications and databases vulnerable to compromise, jeopardizing the confidentiality, integrity,
and availability of the stored and processed information.

        (U) OIG made 10 recommendations associated with the five finding areas to enhance the
security posture of the Department’s major applications. The most significant of these
recommendations are as follows:

      (SBU) Identify and obtain personnel who have the expertise to develop the needed
       security enhancements to the NCD application.
      (SBU) Develop a comprehensive strategy for periodic database vulnerability scanning to
       ensure that database vulnerabilities are identified and remediated. 
      (SBU) Develop a patch management strategy to ensure that database security patches are
       applied in a timely manner. 
      (SBU) Identify and provide appropriate training for post SMART-C administrators to
       ensure clarity of the SMART-C access controls features. 

                                          2
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

      (SBU) Periodically review and remove (b) (5)
              to prevent potential malicious use (b) (5)
      (SBU)  Perform periodic reviews of audit logs to proactively detect and investigate
       potential security incidents.

      (U) In August 2012, OIG provided a draft of this report to the Bureaus of Information
Resource Management (IRM), Diplomatic Security (DS), Consular Affairs (CA), and Human
Resources (HR). OIG made 10 recommendations.

      (U) Recommendations 1, 2, 3, 4, 7, 9, and 10 were addressed to IRM. IRM concurred
       with Recommendations 1, 2, 4, 7, 9, and 10 but did not concur with Recommendation 3.
       (IRM’s response is in Appendix D.)
      (U) Recommendation 5 was addressed to DS, which concurred with the recommendation.
       (DS’s response is in Appendix E.)
       (U) Recommendation 8 was addressed to CA, which concurred with the
       recommendation. (CA’s response is in Appendix F.)
      (U) Recommendation 6 was addressed to HR. HR did not state concurrence or
       nonconcurrence with the recommendation but indicated that a process was in place to
       address the recommendation and requested that the recommendation “be removed or
       closed.” However, OIG determined through its fieldwork, that the process described in
       the response was not working as intended. (HR’s response is in Appendix G.)  
        (U) Based on the responses to the 10 recommendations, OIG considers eight
recommendations (Nos. 1, 2, 4, 5, 7, 8, 9, and 10) resolved, pending further action, and two
recommendations (Nos. 3 and 6) unresolved. IRM and HR, respectively, need to implement
control procedures to address the weaknesses identified in Recommendations 3 and 6.

       (U) For Recommendation 3, IRM did not present sufficient justification to address the
necessary oversight of the system administrators to protect sensitive Department information.
OIG believes that the seriousness of this weakness requires management to oversee the system
administrators and hold them accountable for their actions.

       (U) Actions stated in HR’s response to Recommendation 6 were not supported by what
OIG found in its recent fieldwork. That is, the system administrators have not been receiving the
monthly Separation Reports. However, based on the January 2012 changes stated in HR’s
response, this situation may be improving.

        (U) The bureaus’ responses to each recommendation and OIG’s replies to these responses
are presented after each recommendation.

                                      (U) Background
       (U) Effective logical access controls are critical for any organization that depends on
information technology (IT) and even more important for Federal Government agencies, such as
the Department, where maintaining the public’s confidence both locally and internationally is

                                          3
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

essential. The widespread use of the Internet has changed how agencies conduct business.
Although use of the Internet has brought about many benefits for agencies to help them meet
their mission objectives, it also exposes Federal networks and applications to potentials threats.

        (U) Without effective logical access controls, information systems are vulnerable to
attack by individuals and groups who may have malicious intent to intrude and use their
unauthorized access to compromise the confidentiality, integrity, and availability of these
systems. Over the past several years, Federal agencies have reported an increasing number of
security incidents, including the Wikileaks incident that resulted in the unauthorized release of
sensitive cables to the public.

        (U) OMB Circular A-130, Appendix III,2 further establishes a minimum set of controls to
be included in Federal automated information security programs. These controls include logical
access controls such as separation of duties enforced by limitations on the processing privileges
of individuals. IRM manages the Department’s computer networks.3 The Department’s bureaus
provide mission-oriented systems and applications to Department users in support of their
respective functions. User access controls to these systems and applications, both physical and
logical controls, are administered by the respective bureaus and are required to meet the
minimum control standards set forth in the Department’s policies. The Chief Information
Officer (CIO) is responsible for directing and administering the Department’s information
security program and for serving as the principal adviser to the Secretary of State on the
development, implementation, and, as necessary, the revision of policies, plans, and programs for
information resources management.

       (U) National Institute of Standards and Technology (NIST) Special Publication (SP) 800-
53, Revision 3,4 provides the recommended controls needed to enforce access to Federal
information and information systems. For example, least privilege controls require “only
authorized accesses for users (and processes acting on behalf of users) that are necessary to
accomplish assigned tasks in accordance with organizational missions and business functions.”

       (U) The Department’s FAM sets forth policies and procedures that require all personnel
accessing the Department’s automated information system (AIS) to be given access levels based
on a need-to-know5 basis, appropriate supervision, and knowledge of their AIS security
responsibilities.



2
  (U) OMB Circular A-130, Management of Federal Information Resources, app. III, “Security of Federal
Automated Information Resources.”
3
  (U) Computer networks are information systems implemented with a collection of interconnected components.
Such components may include routers, hubs, cabling, telecommunications controllers, key distribution centers, and
technical control devices.
4
  (U) NIST SP 800-53, Recommended Security Controls for Federal Information Systems and Organizations, rev. 3,
Aug. 2009.
5
  (U) “Need to know” is a method of isolating information resources based on users’ needs to have access to that
resource in order to perform their jobs but no more. The terms “need to know” and “least privilege” express the
same idea. “Need to know” is generally applied to people, while “least privilege” is generally applied to processes.
                                                4
                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        (U) OMB Circular A-130, Appendix III, defines a “major application” as “an application
that requires special attention to security due to the risk and magnitude of the harm resulting
from the loss, misuse, or unauthorized access to or modification of the information in the
application.” Effective logical access controls are therefore paramount in preserving the
confidentiality, integrity, and availability of these applications. As of April 2011, the
Department’s Information Technology Asset Baseline6 (ITAB) contained 197 active major
applications. To attain its audit objective, OIG planned to review logical access controls for a
sample of major applications from ITAB. (Sampling details are in Appendix A.)

                                               (U) Objective
       (U) The objective of this audit was to determine the effectiveness of logical access
controls pertaining to selected major applications used by the Department. Specifically, the audit
was to determine whether logical access controls were in place and were operating effectively.

                                            (U) Audit Results
        (SBU) OIG reviewed logical access processes and procedures around major applications
pertaining to account authorization, periodic account revalidation, concept of least privilege,7
separation of duties, audit log monitoring, and database vulnerability assessments. OIG’s final
sample comprised 19 major applications. OIG found weaknesses pertaining to logical access
controls in the applications and related databases reviewed both domestically and at the three
embassies visited during the audit: Embassy Buenos Aires, Embassy Madrid, and Embassy
Accra. Of the 19 applications sampled, OIG performed a manual review of access controls
processes and procedures for 168 applications and determined the following:
     (SBU) Of 16 applications, 11 had procedures in place for account authorization and 14
        had access controls features that enforced the concept of least privilege.  
     (SBU) Systems administrators for 13 of 16 applications did not have (b) (5)
                                                 
       (SBU) Systems administrators and personnel officers for 14 of 16 applications did not
        have formal processes for obtaining formal notifications of (b) (5)
                                        
       (SBU) For all 16 applications reviewed, there were no formal processes in place for
        (b) (5)                    
       (b) (5)                                                                                                   


6
  (U) ITAB is the Department’s official inventory of applications.
7
   (U) The concept of least privilege is the security objective of granting users only those accesses they need to
perform their official duties.
8
   (U) Of the remaining three applications from OIG’s sample of 19, two applications, the Consular Lookout and
Support System (CLASS) and the Automated Biometric Identification System (ABIS) were back-end processing
applications and were not manually reviewed by OIG. The Travel Document Issuance System (TDIS) was not
manually reviewed because of the geographical distribution of its user base and OIG’s resource limitations. Related
databases for all three applications were subjected to automated scanning. Further, OIG reviewed the Consular
Electronic Application Center (CEAC) and found that it is a public facing application, to which OIG’s audit
procedures generally do not apply.
                                                5
                                   SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

          (b) (5)
                                                                                     (Database
            vulnerability scans could not be conducted for six of 19 major applications in OIG’s final
            sample because of the scope limitations detailed in Appendix A, “Scope and
            Methodology.”)  
          (SBU) Based on the information cited, OIG found that overall progress has been made
  toward the implementation of effective logical access controls for major applications but noted
  that challenges remained. The Department needs to address several control weaknesses, as
  described in Findings A–E, that were found both domestically and at the three overseas
  embassies OIG visited.

  (SBU) Finding A. Protection of Sensitive Cables Remains a Challenge
          (SBU) Two years after the Wikileaks incident, logical access controls for key cable-
  related applications continued to have weaknesses (b) (5)                  Within OIG’s sample
                                                                                (b) (5)
  of 19 major applications, two applications, NCD and SMART-C,
                                               NCD was the application involved in the Wikileaks
  cables incident. (b) (5)



           (b) (5)




         (U) The FAM11 requires the Department to establish “personnel security procedures
  which require that all employees accessing any of the Department's classified automated
  information system (AIS) processing resources . . . to have the appropriate access levels and need
  to know in connection with the performance of official duties.”

          (U) Further, the FAM12 states, “The data center manager and the system manager enable
  the audit trail feature on the operating system and install any required security software to record
  security incidents listed in 12 FAM 637.1-9.”



  9
     (U) Telegrams, also called “cables,” are the official record of Department of State policies, program activities, post
   operations, and personnel management. Official communications are to be preserved as a cable or a record e-mail.
   These messages are available through several internal resources.
(b) (b) (5)
(5)11 (U) 12 FAM 631.1, “Personnel Security.”
   12
      (U) 12 FAM 637.3-3, “Establishing Audit Trails and Logs.”
                                                    6
                                       SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

(U) Net-Centric Diplomacy Application

       (SBU) NCD was developed for the purpose of sharing diplomatic reporting information,
including cables, with the Department and other Government agencies. This sharing of
information is accomplished through the Secret Internet Protocol Router Network13 (SIPRNet).
The shared diplomatic cables consist of SIPDIS14 captioned cables. These are cables deemed
appropriate for interagency sharing. In the Wikileaks incident, the alleged perpetrator
downloaded several thousand cables and is alleged to have provided this information to an
unauthorized source.

       (SBU) IRM officials stated that access to NCD via SIPRNet was discontinued after the
Wikileaks incident. However, as of March 12, 2012, when OIG met with IRM officials, OIG
found the following logical access controls weaknesses for NCD:
     (b) (5)




       (SBU) IRM officials stated that a project had been initiated to redesign NCD to address
the access control weakness after the Wikileaks incident. Per a plan of action provided to OIG
by the NCD team (NCD.09.00.00 Plan of Action, dated February 12, 2012), the purpose of the
redesign effort was to make software modifications to enhance the security posture of NCD. The

13
   (U) SIPRNet is the Department of Defense-funded, Defense Information Systems Agency-managed, secret-level
classified Intranet. SIPRNet provides Internet-like connectivity to a host of agencies throughout the Federal
Government.
14
   (U) SIPDIS is the Department’s distribution caption that facilitates inter-agency information sharing of classified
and unclassified cables via the U.S. Government’s SIPRNet.
15
   (U) Evaluation of Department of State Information Security Program (AUD/IT-12-14, Nov. 2011).
16
   Authentication means verifying the identity of a user, process, or device, often as a prerequisite to allowing access
to resources in an information system.
17
   (U) “Hard coded” means that data value or behavior is written directly into a program.
18
   (U) The source code is the form in which a computer program is written by the programmer.
19
   (U) The NCD redesign effort comprised four subprojects, known collectively as “Eclipse.”
                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

software security requirements addressed in the redesign included the addition of user
authentication, implementation of code changes to reduce data vulnerabilities, configuration of
the non-SIPDIS caption exclusion capability, audit trail capability, user-based download
threshold alerts, ability to turn off certain NCD features, and the capability to remove comments
to preserve integrity cables. (Details of these security enhancements are in Appendix C.)
However, IRM officials stated that the enhancements had not been completed for three primary
reasons: (1) a lack of technical expertise on the part of the contractor supporting the application;
(2) difficulty finding contractor personnel with top secret/sensitive compartmented information
clearances; and (3) difficulty in understanding the NCD application because the Bureau of
Resource Management did not provide the full source code for NCD, as well as sufficient
documentation for the application, during the transition to IRM.

(U) SMART-C Application

       (SBU) SMART-C provides users with the ability to send e-mails and cables and can be
accessed by users with ClassNet access. Regarding SMART-C, OIG determined the following:

        (SBU) All six post administrators at the embassies visited had unrestricted access to the
         content of all captioned cables at their respective embassies. In addition, all four
         SMART administrators at the Main State Messaging Center have unrestricted access to
         the content of all cables. IRM officials stated that all the system administrators require
         full access to cables so that they can collaboratively manage and troubleshoot issues such
         as those related to the delivery of the cables. (b) (5)




        (SBU) SMART-C audit logs did not provide the information needed for post
         administrators to detect abnormal end user or administrator activity. IRM Messaging
         Office personnel stated that the current audit log capabilities of SMART-C were not
         developed for post administrator use but for SMART-C developers to facilitate the
         detection of application issues. Thus the audit log was useful to the development team
         but was not useful for detecting unusual activity by users or administrators.

        (SBU) There was a lack of clarity regarding the use of Role Based Access Controls20
         (RBAC) features, such as the use of Traffic Analysis by Geography and Subject21
         (TAGS) captions, and dissemination rules among post administrators. Post
         administrators stated that the lack of clarity regarding the RBAC features was due to
         insufficient SMART training. When post administrators responsible for administering
         and securing SMART-C are unclear about the application’s security features,
         confidentiality of the contents of captioned cables could be at risk.
20
   (U) RBAC is a model for controlling access to resources where permitted actions on resources are identified with
roles rather than with individual subject identities.
21
    (U) TAGS are labels to help ensure that the right telegrams are seen by the right readers.
                                                8
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        (SBU) Some of the Federal Government’s most sensitive information exists in cables
stored in applications such as NCD and SMART-C. Without resolving the logical access
controls issues inherent in these applications, an incident similar to Wikileaks could occur.
Additionally, if SMART-C administrators do not receive the appropriate training to enable them
to fully understand and implement the RBAC features of the application, there is the risk that
sensitive cables could be exposed to unintended audiences. Also, without a useful audit trail of
user activity in both NCD and SMART-C, administrators are less likely to detect and investigate
suspicious activity relating to cable access.

       (SBU) Recommendation 1. OIG recommends that the Chief Information Officer
       acquire the technical resources and implement the enhancements identified by the Net-
       Centric Diplomacy (NCD) team in NCD.09.00.00 Plan of Action, dated February 12,
       2012, to ensure that users do not have broader access to cables than what is required to
       perform their duties.

       (SBU) Management Response. IRM concurred with the recommendation, stating that
       actions will be taken “to acquire the necessary technical resources to implement” the Plan
       of Action. IRM further stated, “As of June 11, 2012, these resources have been acquired
       and a full team of developers is in place and actively working on the NCD.09.00.00
       software release.”

       (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and accepts documentation showing actions IRM has
       taken to enhance the security posture of NCD as detailed in the NCD.09.00.00 Plan of
       Action.

       (SBU) Recommendation 2. OIG recommends that the Chief Information Officer
       establish standard training requirements for post Classified State Messaging and Archive
       Retrieval Toolset (SMART-C) and ensure that system administrators receive required
       training before they are assigned and annually thereafter.

       (SBU) Management Response. IRM concurred with the recommendation, stating that
       the Foreign Service Institute had “established week-long classroom and long distance
       system administrator training based on training requirements from IRM.”

       (U) OIG Reply. OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and accepts documentation showing actions taken by
       IRM to improve the training of system administrators.

       (SBU) Recommendation 3. OIG recommends that the Chief Information Officer
       implement logical access controls to ensure that system administrators do not have the
       ability to read information within sensitive cables that they do not need to perform their
       administrative duties.

       (SBU) Management Response. IRM did not concur with the recommendation, stating
       that because of “critical mission functions of Embassies abroad, and the impact upon
                                                 9
                              SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED

                 safety issues, Foreign Service Information Technology personnel are required to have full
                 administrative access to all systems.”

                 (SBU) OIG Reply. While OIG recognizes the critical nature of embassies’ operations
                 and the important role of Foreign Service Information Technology personnel,
                 accountable and controlled access to sensitive information such as captioned cables must
                 be maintained. A remedy to promote accountability and control, while granting access to
                 legitimate information when needed, would be to assign system administrators unique
                 accounts with permissions that logs access to information. This action, along with
                 effective oversight, would help protect access to sensitive Department information and
                 fix accountability. OIG considers this recommendation unresolved and will continue
                 discussions with IRM during the audit compliance process to pursue implementation of
                 the recommendation.

                 (SBU) Recommendation 4. OIG recommends that the Chief Information Officer equip
                 the Net-Centric Diplomacy (NCD) and Classified State Messaging and Archive Retrieval
                 Toolset (SMART-C) applications with audit trail capabilities to log user and
                 administrator activity.

                 (SBU) Management Response. IRM concurred with the recommendation, stating that
                 as of May 31, “The audit trail capability had been implemented in NCD.” IRM further
                 stated, “The audit log contains ALL administrative changes to SMART.” IRM also
                 stated that it, “in consultation with DS, will continue to seek [a] commercial or custom
                 solution” that detects anomalies in major applications but that it “has been unable to find
                 a COTS product that will validly detect anomalies.”

                 (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
                 can be closed when OIG reviews and accepts documentation supporting audit trail
                 capabilities and showing that the Department has implemented a solution that detects
                 anomalies in major applications.
(b) (5)




      22
           (U) 12 FAM 615.1, “Assistant Secretary, Bureau of Diplomatic Security (DS).”
                                                      10
                                          SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED
   (b) (5)



             (U) The FAM23 states, “DS/SI/CS [DS’s Security Infrastructure Directorate, Computer
      Security], the Evaluation and Verification Program personnel, must scan for vulnerabilities in the
      information system24 periodically, as well as when significant new vulnerabilities affecting the
      system are identified and reported.”
(b) (5)




      (SBU) Finding C. Account Management Procedures Need Strengthening

              (SBU) OIG identified one or more account management deficiencies for the 16
      applications reviewed. Specifically, system administrators and personnel officers generally did
      not have formal processes for removing user and administrator access from applications when an
      employee changed jobs within the Department, retired, or resigned. In addition, system
      administrators did not perform either periodic account revalidation, which was contrary to
      requirements in the FAM as well as being deleterious to system security. The deficiencies
      occurred because system administrators were not adhering to the existing procedures for
      performing these activities as prescribed in the FAM. Without ensuring that system owners


      23
        (U) 5 FAM 1065.5, “Vulnerability Scanning.”
      24
        (U) The NIST glossary of key Information Security terms defines an “information system” as “a discrete set of
      information resources organized for the collection, processing, maintenance, use, sharing, dissemination, or
      disposition of information.” Per this definition, the major applications in the scope of this audit and their related
      databases are examples of the “information system” referenced in 5 FAM 1065.5.
                                                      11
                                          SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

comply with the FAM regarding the removal of unneeded accounts in a timely manner, there is
the risk of unauthorized access to information.

(SBU) Removing User and Administrator Access

        (SBU) OIG determined that for 14 of 16 major applications reviewed, standardized
processes had not been implemented to ensure that system administrators were notified in a
timely manner (b) (5)

The FAM requires that personnel officers notify the data center manager, the system manager,
and the Information Systems Security Officer (ISSO) immediately of any employee or contractor
who has access to the system whose employment has been terminated for any reason so that
access privileges can be revoked. (b) (5)


          (SBU) Only one of the system administrators for the 16 major applications OIG
reviewed was able to provide evidence of consistent notification from personnel officers to
facilitate the removal of accounts of departing employees. (b) (5)

                                                                                    The system
administrators stated that they received notification of employee departures sometimes through
the employee’s supervisor and other times from the employee as part of checkout procedures
when an employee departed. One system administrator stated that he found out that an employee
was leaving the Department only after he received a group e-mail from the departing employee
to the entire staff.

(U) Account Revalidation

          (SBU) OIG determined that for 13 of 16 applications reviewed, there were no
standardized processes for performing periodic account revalidation to identify accounts no
longer required. OIG found that the process was haphazard. For instance, one application’s
administrator stated that revalidation was performed as part of his occasional troubleshooting of
account management issues. In another instance, a system administrator stated that e-mails were
sent on a monthly basis to system owners requiring them to confirm accounts but that no
responses from system owners were received and no followup e-mails were sent. In other cases,
no periodic account revalidation was performed. According to the FAM,26 “The ISSO reviews
the list of AIS users on a periodic basis to determine whether all users are authorized access to
the AIS.” (b) (5)




25
     (U) 12 FAM 621.3-3, “System Access.”
26
     (U) 12 FAM 622.1-8, “Monitoring System Users.”
                                               12
                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

(SBU) Account Management Issues With Bureau of Consular Affairs Applications

         (SBU) OIG found account management weaknesses specific to Bureau of Consular
Affairs (CA) Consular Shared Tables application used in creating, synchronizing, and managing
users for consular applications including, but not limited to, the Passport Information Electronic
Records System (PIERS) and the Consular Consolidated Database (CCD) at the three embassies
visited (Buenos Aires, Madrid, and Accra). The following weaknesses were identified:

           (SBU) OIG determined that no formal processes existed at the three embassies to
            facilitate the assignment of roles to new or transferring users. The consular managers
            stated that they relied on experience in determining what roles should be assigned to
            users. According to the FAM,27 the ISSO and system administrators must control and
            limit access to the level necessary for users to perform their official duties. Without
            implementing formal processes, there is the risk of users being given broader access
            than required to perform their duties.  
             
           (SBU) OIG determined that multiple active accounts existed for three users in
            Embassy Buenos Aires and four users in Embassy Madrid. (b) (5)




            The consular managers also stated that they did not disable the previous accounts
            because of an oversight on their part. According to the FAM,28 an authorized user
            must initially be assigned a unique ID and password and may be assigned more than
            one user ID and password only if it is required for the performance of the user’s
            duties. Without controlling the ability to create multiple user accounts, accountability
            may be compromised, since transactions cannot be accurately traced to the actual
            user.

           (SBU) OIG determined that accounts were not disabled for six users in Embassy
            Buenos Aires and one user in Embassy Madrid who no longer worked at those
            embassies. The consular managers stated that these accounts remained active because
            of an oversight on their part. The FAM29 requires that the system manager, in
            conjunction with the ISSO, revoke user access privileges for personnel who are
            transferred or terminated. (b) (5)

                                                            

           (SBU) OIG determined that all three embassies had not implemented a formal process
            for provisioning users to the applications. Consular managers did not provide any


27
   (U) 12 FAM 622.1-2, “System Access Control.”
28
   (U) 12 FAM 622.1-3, “Password Controls.”
29
   (U) 12 FAM 621.3-3, “System Access.”
                                            13
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

                 reason as to why they did not have a formal process. According to the FAM,30
                 supervisors must complete a system access request form for each staff member who
                 requires access to the application. The FAM also requires that the ISSO and the
                 system manager control and limit access to the level necessary for users to perform
                 their official duties. Without following a formal and consistent process, there is a risk
                 of unauthorized users being granted access to the applications.  
           (U) Recommendation 6. OIG recommends that the Bureau of Human Resources
           institute a formal process to notify system owners on a monthly basis of employee
           departures to ensure the timely removal of accounts of departing or transferring
           employees.

           (U) Management Response. HR did not state concurrence or nonconcurrence with the
           recommendation. However, HR stated, “Since 2012, HR/EX, through coordination with
           the office of the Managing Director of CGFS/DCFO (at that time RM/DCFO), has been
           submitting a monthly Separation Report to all system owners for appropriate action.
           DCFO regularly provides HR/EX with updates to the system owner distribution list. This
           list includes designated points of contact as determined by System and Business
           Managers throughout the Department.”

           (U) The response further stated, “At the time of origin, the Report was based upon the
           effective Date of Separation as recorded in the Global Employment Management System,
           GEMS. Due to the appearance of a gap in the data when individual actions were not
           processed in a timely manner by bureaus, HR/EX revised the report logic so that, since
           January 2012, it has been based upon the processed date. The report, of course,
           continues to show the effective date so that system owners can take proper action. Due to
           the fact [that] the requested HR report is in place and is distributed to system owners on a
           monthly basis, DGHR respectfully requests that this recommendation be removed or
           closed.”

           (SBU) OIG Reply. The process HR explained indicates that HR is taking action to
           address the issue of a process for notifying system owners of departing employees, but
           there is a breakdown in the process. OIG determined that although monthly Separation
           Reports are being submitted, system administrators were not receiving the results. IRM,
           in coordination with HR, should determine why the monthly reports are not being
           received.

           (SBU) This recommendation is unresolved. This recommendation can be closed when
           OIG reviews and accepts documentation showing that IRM, in coordination with HR, has
           implemented actions to notify system owners of the personnel changes.

           (SBU) Recommendation 7. OIG recommends that the Chief Information Officer (CIO)
           require system owners to annually revalidate user and administrator accounts, remove


30
     (U) Ibid.
                                               14
                                   SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

           those accounts that no longer require access, and certify to the CIO that revalidation has
           been completed.

           (SBU) Management Response. IRM “substantively agree[d]” with the
           recommendation, stating that “[s]ystem owners will receive clear guidance to annually
           revalidate user and administrator accounts and remove those accounts that no longer
           require access.”

           (SBU) OIG Rely. OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts the guidance issued to system owners
           pertaining to annual revalidation requirements.

           (SBU) Recommendation 8. OIG recommends that the Bureau of Consular Affairs (CA),
           Office of Consular Systems and Technology, provide additional guidance to key users of
           CA’s applications at post to ensure that consular managers and other key users of those
           applications understand administrative features related to creating and managing user
           accounts for consular applications.

           (SBU) Management Response. CA agreed with the recommendation, stating that it and
           its Office of Consular Systems and Technology and Office of the Executive Director are
           “working to develop standard guidance for consular managers and key application users
           to safeguard the integrity and accountability of consular processes.” CA further stated
           that it “will establish consistent procedures for regularly reviewing, validating, and
           decommissioning user accounts, as well as adding, deleting, and modifying user roles to
           ensure all users have appropriate access based on clearance level, citizenship status,
           organization, and need to know.”

           (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and accepts guidance issued to consular managers and
           key application users to safeguard the integrity and accountability of consular process.

(SBU) Finding D. System Administrator Activities Are Not Monitored
Effectively
         (SBU) OIG determined, for all 16 major applications it reviewed, that audit logs
pertaining to system administrator activities were not being reviewed monthly by ISSOs, as
required by the FAM.31 System administrators stated that because of limited staff, there was an
operational need to provide all system administrators with the same permissions to enable other
system administrators to perform the necessary tasks to continue operations when other
administrators were not available. However, when systems administrators all have the same
level of privileged access to system resources and there is no effective oversight over their
activities, (b) (5)
              Without periodic reviews of audit logs of administrator activity, potential security
incidents may not be detected and resolved in a timely manner.
31
     (U) 12 FAM 629.2-7, “Establishing and Review of Audit Trails/Logs.”
                                                15
                                    SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

              (SBU) Recommendation 9. OIG recommends that the Chief Information Officer
              institute a formal process to require system owners to certify that the Information
              Systems Security Officer has reviewed audit logs monthly in order to detect and resolve
              potential security incidents in a timely manner.

              (SBU) Management Response. IRM agreed with the recommendation, stating, “The
              ISSO and key system administrators of owning sites will be required to review audit logs
              monthly in order to detect and resolve potential security incidents in a timely manner.”

              (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
              can be closed when OIG reviews and accepts documentation showing that ISSOs and key
              system administrators are reviewing audit logs monthly.

    (SBU) Finding E. Patch Management Program for Databases Is Not Effective
           (SBU) From a sample of 19 applications, OIG performed an automated vulnerability
    assessment of databases related to 13 applications: seven applications from CA, four applications
    from DS, and two applications from the Office of the Executive Secretary (ES). Based on its
    review, OIG determined that the Department did not have an effective patch management
    program for databases relating to six CA applications, four DS applications, and one ES
    application. (b) (5)




            (U) The FAM33 requires that system administrators follow guidelines and procedures
    established by the Department’s Enterprise Patch Management Program (EPM) and apply
    patches in an expeditious manner.

            (SBU) Specifically, OIG found 11 patching issues from its assessment of the databases
    related to the following 13 applications reviewed:
    (b) (5)




(b) (5)
    33
      (U) 5 FAM 866, “Patch Management.”
    34
     (U) The systematic notification, identification, deployment, installation, and verification of operating system and
    application software code revisions are known as “patches,” “hot fixes,” and “service packs.”
                                                   16
                                       SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED
          (b) (5)




                   (U) Secretariat Telegram Processing System (STEPS II) – No patching issues were
                    found with this database.
(b) (5)




           (U) The Department is a key steward of sensitive information such as passport records.
    Up-to-date database patch installation can help mitigate vulnerabilities associated with flaws in
    software code that may lead to unauthorized access to sensitive data.
 (b) (5)




                                                 17
                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED
(b) (5)




       (U) The 19 major applications reviewed and their related finding areas are shown in
Figure 1.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(SBU) Figure 1. List of Major Applications and Related Finding Areas
                                                           Findings
                                                a
                                        A      B                C                                 D      E
                                                         b
           Applications                                i        iic  iiid
Automated Biometric Identification
System (ABIS)e
Consular Consolidated Database (CCD)                                   √        √         √       √      √
Consular Electronic Application Center                                                            √      √
(CEAC)f
Consular Lookout and Support System                                                                      √
(CLASS)
Crisis Emergency Planning Application                                  √        √                 √      √
Classified (CEPA-C)
Electronic State Configuration Resource-                               √        √                 √
ClassNet (e-SCORE)
Investigative Management System                                        √        √                 √      √
(IMS-C)
Net-Centric Diplomacy (NCD)                        √                   √        √                 √
Passport Information Electronic Records                                √        √         √       √      √
System (PIERS)
Secretariat Telegram Processing System                                 √                          √
(STEPS II)
Secretariat Tracking and Retrieval System                              √                          √      √
 (STARS)
Secure Integrated Logistics Management                                          √                 √
System (S-ILMS)
Security Incidents (SECINTS)                                           √        √                 √      √
SMART Core Messaging-Classified                    √                   √        √                 √
(SMART-C)
State Archiving System 2 (SAS 2)                                       √        √                 √
SY Namecheck (SYNCH)                                                   √        √                 √      √
The Office of Foreign Missions                                         √        √                 √
information
Travel Document Issuance System TDIS)                                                                    √
Visa Opinion Information Service (VOIS)                                √        √                 √      √
(U) a
      Finding B is not specific to any application.
(SBU) b
        Removing user and administrator access.
(SBU) c
        Account revalidation.
(U) d
      See section “Account Management Issues With Bureau of Consular Affairs Applications” in report.
(U) e
      OIG understood that CLASS and ABIS are back-end processing applications, so these applications were not
manually reviewed by OIG. TDIS was not reviewed because of the geographical distribution of its user base and
OIG resource limitations. However, OIG performed a vulnerability scan on these applications’ databases.
(U) f
      CEAC is a public facing Web site. OIG’s limited manual review areas applied to this application. However,
OIG performed a vulnerability scan on its database.
(U)
    Source: OIG analysis.



                                              19
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                               (U) List of Recommendations

(SBU) Recommendation 1. OIG recommends that the Chief Information Officer acquire the
technical resources and implement the enhancements identified by the Net-Centric Diplomacy
(NCD) team in NCD.09.00.00 Plan of Action, dated February 12, 2012, to ensure that users do
not have broader access to cables than what is required to perform their duties.

(SBU) Recommendation 2. OIG recommends that the Chief Information Officer establish
standard training requirements for post Classified State Messaging and Archive Retrieval Toolset
(SMART-C) and ensure that system administrators receive required training before they are
assigned and annually thereafter.

(SBU) Recommendation 3. OIG recommends that the Chief Information Officer implement
logical access controls to ensure that system administrators do not have the ability to read
information within sensitive cables that they do not need to perform their administrative duties.

(SBU) Recommendation 4. OIG recommends that the Chief Information Officer equip the Net-
Centric Diplomacy (NCD) and Classified State Messaging and Archive Retrieval Toolset
(SMART-C) applications with audit trail capabilities to log user and administrator activity.

(SBU) Recommendation 5. (b) (5)



(U) Recommendation 6. OIG recommends that the Bureau of Human Resources institute a
formal process to notify system owners on a monthly basis of employee departures to ensure the
timely removal of accounts of departing or transferring employees.

(SBU) Recommendation 7. OIG recommends that the Chief Information Officer (CIO) require
system owners to annually revalidate user and administrator accounts, remove those accounts
that no longer require access, and certify to the CIO that revalidation has been completed.

(SBU) Recommendation 8. OIG recommends that the Bureau of Consular Affairs (CA), Office
of Consular Systems and Technology, provide additional guidance to key users of CA’s
applications at post to ensure that consular managers and other key users of those applications
understand administrative features related to creating and managing user accounts for consular
applications.

(SBU) Recommendation 9. OIG recommends that the Chief Information Officer institute a
formal process to require system owners to certify that the Information Systems Security Officer
has reviewed audit logs monthly in order to detect and resolve potential security incidents in a
timely manner.

(SBU) Recommendation 10. (b) (5)

                                          20
                              SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      21
          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

                                                                                           (U) Appendix A
                                   (U) Scope and Methodology
        (U) The focus of this audit was to determine whether the Department had developed
effective logical access controls around its major applications and related databases and provided
management with timely results regarding the effectiveness of these controls.

       (U) OIG interviewed application and systems administrators and obtained the necessary
evidence and documentation to gain an understanding of logical access controls around the
applications in the scope of the audit.

        (U) In addition, OIG used commercial-off-the-shelf (COTS) database scanning software
to perform database vulnerability assessments. OIG selected DbProtect, a product created by
Application Security, Inc., and configured the software to utilize the built-in Defense
Information Systems Agency Security Technical Implementation Guide for databases, which
meets the requirements of the Department’s database configuration policies. DbProtect was used
to perform a vulnerability and configuration scan against a sample of the Department’s databases
and highlighted areas of risk and where database security process improvements were needed.
Based on this analysis, the software provided detailed remediation instructions to eliminate
database vulnerabilities and misconfigurations. OIG met with Database Administrators to
validate the results to ensure that false positives were eliminated.

        (U) To evaluate the adequacy of the logical access controls for the selected applications
and related databases, OIG used the following criteria:

       (U) Department policies and procedures in the Foreign Affairs Manual (FAM).
       (U) Office of Management and Budget (OMB) Circular No. A-130, Appendix III.1
       (U) National Institute of Standards and Technology (NIST) Special Publications (SP) and
        Federal Information Processing Publications Standards (FIPS).
       (U) Memorandum M-11-06, Memorandum for the Heads of Executive Departments and
        Agencies, “WikiLeaks—Mishandling of Classified Information,” November 28, 2010.
       (U) The Office of Inspector General (OIG) performed this audit from December 2011–
May 2012 in accordance with generally accepted government auditing standards. Those
standards require that OIG plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for the findings and conclusions based on the audit objective. OIG
believes that the evidence obtained provides a reasonable basis for the findings and conclusions
based on the audit objective.

       (U) OIG discussed its findings and proposed recommendations with officials from the
Department of State’s (Department) Bureau of Administration, the Bureau of Diplomatic
Security (DS), the Bureau of Human Resources (HR), the Bureau of Information Resource
Management (IRM), the Bureau of Intelligence and Research (INR), the Bureau of Overseas

1
 (U) OMB Circular A-130, Management of Federal Information Resources, app. III, “Security of Federal
Automated Information Resources.”
                                             22
                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Buildings Operations (OBO), and the Executive Office of the Secretary on June 27, 2012.
Additionally, management staffs at Embassy Buenos Aires (Argentina), Embassy Madrid
(Spain), and Embassy Accra (Ghana) were briefed on preliminary findings on January 27,
February 3, and February 10, 2012, respectively.

(U) Scope Limitation

        (U) According to the FAM,2 DS is responsible for conducting vulnerability assessments
related to the Department’s network systems. Since DS was already positioned to perform the
network assessments, OIG made an effort to conduct database vulnerability scans as part of the
access controls audit using DS infrastructure.

       (U) To conduct database scans outside the DS domain, OIG requested and then created a
new service account for its scanning tool DbProtect. However, this new service account lacked
the necessary permissions on the DbProtect console to enable the tool to work properly. OIG
requested that the newly created service account be added to the local administrative group on
the console to give the tool the same rights that enabled it to scan databases within the DS
domain. OIG determined that the new service account was never added to the local
administrator group as requested. On the appointed scan date, DS officials told OIG that the
newly created account had expired. DS officials attempted to recreate the account but were
unable to do so within the timeframe required to meet the scanning schedule.

(U) Work Related to Internal Controls

        (U) OIG performed steps to assess the adequacy of internal controls by performing
manual and automated assessments of logical access controls around major applications and
related databases. For example, OIG conducted manual assessments at three embassies,
including determining whether accounts were properly authorized, periodic account revalidation
was performed, concept of least privilege was implemented, adequate oversight existed over
system administrators, and the Department’s patch management program for database
management systems was effective. Furthermore, OIG used an industry-recognized vulnerability
assessment tool to test logical access control weaknesses in the databases related to the major
applications in the scope of this report. The assessment tool was configured to utilize the
Department’s standard database security configuration settings as a basis for identifying any
logical access control weaknesses. OIG validated the results of the assessment with database
administrators to ensure that certain application-dependent settings identified by the tool as a
finding were ruled out.
       (U) The internal control deficiencies identified during this audit are detailed in the “Audit
Results” section of this report.




2
    (U) 12 FAM 615.1, “Assistant Secretary, Bureau of Diplomatic Security (DS).”
                                                23
                                    SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

(U) Use of Computer-Processed Data and Data Reliability

        (U) To assess the reliability of computer-processed data, OIG reviewed electronic
documentation related to the data sources and performed tracing of data to source
documentation. More specifically, OIG obtained, from IRM, a listing of major applications and
then verified the accuracy of this list by confirming the existence of each application on the list
in Information Technology Asset Baseline (ITAB), the Department’s official inventory of major
applications. From these efforts, OIG determined that the data were sufficiently reliable to
support the conclusions and recommendations in this report.

(U) Detailed Sampling Methodology

        (U) OIG’s sampling objective was to assess the effectiveness of logical access controls
around the Department’s major applications. Specifically, the testing of a sample of major
applications will assist in determining whether logical access controls are in place and operating
effectively.

       (U) This work was conducted at the domestic bureaus and the three embassies listed. The
applications selected for review were obtained using a nonstatistical sampling method known as
judgmental sampling. Because this method uses discretionary criteria to effect sample selection,
the audit team was able to use information garnered during its preliminary work to aid in making
informed selections.

        (U) Prime considerations in selecting the three overseas sites included the geographical
distribution of the posts, the recency of OIG site visits, and the nature of the controls to be
evaluated. The major applications under review and their related application controls have been
generally implemented uniformly at all overseas posts; consequently, OIG was able to gain a
perspective of overseas conditions pertaining to the design and operating effectiveness of these
controls in general from visiting these three locations.

(U) Identification of Population and Selection of Samples

      (U) After identifying ITAB as the Department’s official inventory of major applications,
OIG requested and received from IRM a listing of all active major applications as of April 5,
2011. The sum of the inventory, or population, was 197 applications.

       (U) In ITAB, the major applications are generally assigned to one of three categories—
High, Moderate, and Low—based on their potential impact level.3 However, OIG noted that
some applications in the population did not have an assigned category; consequently, a fourth
category was added.

        (U) To attain the maximum audit coverage given the available resources, OIG grouped
the entire population of 197 applications into the four categories and then judgmentally

3
 (U) FIPS 199, “Standards for Security Categorization of Federal Information and Information Systems,” Feb.
2004.
                                              24
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

determined the number of applications to sample and review from each category based on
various factors. For instance, OIG opted to review all of the applications in the High category
because of the relatively small number of applications in that group and their potential impact.
For all the other categories, however, a sample of the applications was selected for review, and
this was generally accomplished randomly, although this was not always the case. For the
Moderate category, four applications were selected for the original sample. Two of these
applications were selected randomly, and the other two applications, Passport Information
Electronic Records System (PIERS) and the Travel Document Issuance System (TDIS), were
selected purposely since they had been selected for audit in an audit plan for a prior year but had
to be deferred because of resource constraints. All 35 of the original samples were selected in
this manner, and OIG ultimately sampled and reviewed only 19 of the original samples shown in
Table 1.

(U) Table 1. Population and Samples for the Department’s Major Applications
                         Population        Original Sample          Exclusions From           Final Sample
 Category                  Total                 Size               Original Sample               Size
 High                       28                    27*                       10                       17
 Moderate                  125                      4                        2                        2
 Low                        17                      2                        2                        0
 Uncategorized              27                      2                        2                        0
            Total          197                     35                       16                       19
*Although DS Source was in ITAB, the official inventory of the Department’s major applications, it was excluded
from the original sample because it resides on the U.S. Government’s SIPRNet and not on the Department’s
Network. This effectively reduced the population of “High” applications from 28 to 27.

        (U) Descriptive information on the original sample of 35 major applications, which
subsumes the final sample actually reviewed by OIG of 19 applications, as well as explanations
for the exclusion of 16 applications from the final sample, are provided in Table 2.

(SBU) Table 2. Original and Final Samples of the Department’s Major Applications
                                                                               Excluded From or Included in
       System                            ITAB Description                             the Final Sample
 Secure Integrated        Secure ILMS is a secure version of ILMS.           Included in final sample, but OIG
 Logistics                S-ILMS is a Web-based system that will             was not able to perform all the
 Management System        enhance the Department's ability to manage         work originally planned because of
 (S-ILMS)                 its requisitioning, procurement, receiving,        a scope limitation (see “Scope
                          and distribution on the classified network         Limitation” in this appendix).
                          (ClassNet).
 State Archiving          SAS2 provides access to the Department’s           Included in final sample, but OIG
 System 2 (SAS 2)         automated Central Foreign Policy File.             was not able to perform all the
                          SAS2 captures all significant substantive          work originally planned because of
                          reporting between the Department and its           a scope limitation (see “Scope
                          overseas posts.                                    Limitation” in this appendix).
 Automated                ABIS is a Commercial Off-the-Shelf (COTS)          Included in final sample.
 Biometric                product developed by Identix Incorporated.
 Identification           The ABIS system is an enterprise-level
 System (ABIS)            facial-recognition matching program.
                                              25
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

                                                                           Excluded From or Included in
       System                       ITAB Description                              the Final Sample
Consular Affairs      The CACLI Web site was the direct result of        Excluded because application was
Classified Intranet   a congressional mandate requiring a                retired during audit.
(CACLI)               consolidated repository of information
                      pertaining to terrorist trends and activities to
                      be utilized by consular personnel.
Consular              The Consular Consolidated Database is a set        Included in final sample.
Consolidated          of databases located in Washington, DC, that
Database (CCD)        hold all current data and all archived data
                      from all CA post databases around the world.
Consular Electronic   The Consular Electronic Application Center         Included in final sample.
Application Center    is an Internet-based full service application
(CEAC)                service center whereby applicants for visa
                      services can complete and submit an
                      application.
Consular Lookout      The Consular Lookout and Support System            Included in final sample.
and Support System    (CLASS) is used by passport agencies,
(CLASS)               consulates, and border inspection agencies to
                      perform name checks on visa and passport
                      applicants in support of the issuance process.
Visa Opinion          VOIS is a .NET Web application with single         Included in final sample.
Information Service   sign-on authentication provided by the
(VOIS)                Consular Consolidated Database (CCD)
                      DataMart.
AlarmNet              AlarmNet provides the connectivity for the         Excluded because of resource
                      Department of State Domestic Access                constraints.
                      Control and Intrusion Detection system. It is
                      the backbone of the system that lets you into
                      the building.
Crisis Emergency      CEPA-C assists posts in the development of         Included in final sample.
Planning              their emergency action plans according to the
Application           new Emergency Planning Handbook.
Classified
(CEPA-C)
Freedom of        The Freedom of Information Act (FOIA)                  Excluded because application was
Information SystemCase Tracking System is a fully automated              retired during audit.
(FOIA)            system designed to easily track and maintain
                  all case information and activities resulting
                  from requests for information.
Investigative     IMS-C captures all classified case-related             Included in final sample.
Management System information; automates, integrates, and
(IMS-C)           improves DS’s investigative business
                  processes; establishes a central index
                  encompassing all DS classified
                  investigations; and provides investigative
                  and/or intelligence analysis and analytical
                  processing while creating internal and
                  external electronic data sharing.

                                         26
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

                                                                          Excluded From or Included in
      System                          ITAB Description                           the Final Sample
Post Security Profile   The Post Security Profile Application           Excluded because application was
Application (PSPA)      (PSPA) will support the DS’s mission.           retired during audit.
                        PSPA stores crisis plans for posts worldwide.
Security Incidents      Provides a method of tracking violations        Included in final sample.
(SECINTS)               reported on the handling, storage, and
                        reproduction of information as well as the
                        protection of automated information systems.
SY Namecheck            SYNCH, which is owned and maintained by         Included in final sample.
(SYNCH)                 DS, automates the tasks associated with
                        tracking personnel clearance status and
                        clearance folder locations.
The Office of           The Office of Foreign Missions Information      Included in final sample, but OIG
Foreign Missions        System (TOMIS) is an integrated, custom         was not able to perform all the
Information System      application system designed to support          work originally planned because of
(TOMIS)                 Office of Foreign Missions (OFM) and Chief      a scope limitation (see “Scope
                        of Protocol (S/CPR) activities.                 Limitation” in this appendix).
COMSEC                  CARDS is required to support the                Excluded because of resource
Accounting              Department’s electronic Black Key               constraints.
Reporting and           Distribution System (BKDS) and
Distribution System     Communications Security (COMSEC)
(CARDS)                 accounting and inventory functions world-
                        wide via ClassNet.
Electronic State        This is a Web-based configuration               Included in final sample, but OIG
Configuration           management system for Department                was not able to perform all the
Resource – ClassNet     information technology (IT) hardware and        work originally planned because of
(ClassNet e-            software domestically and overseas.             a scope limitation (see “Scope
SCORE)                  ClassNet e-SCORE contains classified post       Limitation” in this appendix).
                        information, and component-level IT
                        hardware and software information.
Machine Readable        The Machine Readable Travel Document            Excluded because of resource
Travel Document         (MRTD) Public Key Infrastructure (PKI) is a     constraints.
Public Key              system of hardware, software, and policies
Infrastructure and      that enables digital signing of data embedded
Signature Delivery      on electronic passports.
Service (MRTD PKI
and SDS)
Net-Centric             The NCD system is designed expressly to         Included in final sample, but OIG
Diplomacy (NCD)a        share diplomatic reporting information with     was not able to perform all the
                        the Department and the interagency              work originally planned because of
                        community on the U.S. Government’s              a scope limitation (see “Scope
                        SECRET network, accessible to all               Limitation” in this appendix).
                        Department employees through the
                        Department’s ClassNet network.
Public Key              The Department's Public Key Infrastructure      Excluded because of resource
Infrastructure and      is a system of hardware, software, and          constraints.
BLADE                   policies that provide an infrastructure
(PKI/BLADE)             enabling both digital signature and strong

                                           27
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                                          Excluded From or Included in
      System                        ITAB Description                            the Final Sample
                       cryptography across the enterprise.
SMART Core             SMART is a software integration and               Included in final sample, but OIG
Messaging-             development project to reengineer and             was not able to perform all the
Classified (SMART-     modernize the formal and working                  work originally planned because of
C)                     messaging processes and systems in the            a scope limitation (see “Scope
                       Department. SMART Core Messaging                  Limitation” in this appendix).
                       provides direct, secure, and controlled
                       communication to employees worldwide and
                       to other Government agencies.
ProjNet-C              ProjNet-C is the classified version of            Excluded because of resource
                       ProjNet. ProjNet facilitates construction         constraints.
                       project design reviews. Design documents
                       for specific construction project are made
                       available on a need-to-know basis through a
                       secure extranet allowing on-line
                       collaboration between architecture firms and
                       OBO staff.
Chief of Mission       This automated application supports the           Excluded because of resource
and Special            information requirements of the Chiefs of         constraints.
Embassy Programs       Mission Authority, National Security
Database (CSEP)        Decision Directive-38, and the Office of
                       Rightsizing (M/MR). The database
                       maintained by this application contains
                       detailed data on full-time permanent
                       American Department of State positions.
Secretariat Tracking   STARS is a critical application that tracks       Included in final sample.
and Retrieval          approximately 70,000 foreign policy
System (STARS)         memoranda (action, briefing, and
                       information) and correspondence for the
                       Secretary and six Principal Officers of the
                       Department. STARS provides a store of
                       document images.
Secretariat Telegram   STEPS stores, handles, and routes telegrams.      Included in final sample.
Processing System      Designed to help deliver telegrams to the
(Second Edition) –     Principals and other appropriate offices as
(STEPS II)             quickly as possible. Receives telegrams from
                       the State communications center and
                       disseminates them to POEMS users.
WREN                   The Secretary's Worldwide Remote Email            Excluded because of resource
                       Network (WREN) provides the Secretary             constraints.
                       with a mobile communications package in
                       support of a fully transportable computer
                       network.
Electronic Visa        EVAF is an on-line version of form DS-156         Excluded because of resource
Application Form       for the Internet. Applicants are able to enter    constraints.
(EVAF)                 data directly into the on-line data entry forms
                       and then generate and print the completed

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

                                                                       Excluded From or Included in
      System                        ITAB Description                         the Final Sample
                     application forms for presentation to post.
Remote Data Entry    RDS is used overseas to assist in the            Excluded because application was
System (RDS)         collection on nonimmigrant visa applicant        retired during audit.
                     data. There are two application components:
                     RDS Client Software and RDS Server
                     Software. The RDS Client software is
                     distributed to remote sites outside the
                     Consulates. The server software is used to
                     connect to the Non-Immigrant Visa (NIV)
                     database over the network and upload data
                     collected by the client software.
Passport Information The PIERS system, PIERS Query, replaces          Included in final sample.
Electronic Records   Passport Files miniaturization Web (PFM
System (PIERS)b      Web) and Passport Files Miniaturization
                     (PFM). PIERS Query is the single Web
                     portal for all passport data.
Travel Document      TDIS is the Parent for the automated             Included in final sample.
Issuance System      passport system that issues electronic
(TDIS)c              machine-readable passports domestically in
                     conformance with worldwide standards
                     established by the International Civil
                     Aviation Organization (ICAO).
Budget Allocation    The Budget Allocation Tracking System            Excluded because of resource
Tracking System      (BATS) is an HROnline component                  constraints.
(BATS)               application used for tracking and controlling
                     HR budgets, commitments, obligations, and
                     expenditures against the various HR
                     appropriations, allotments, organizations,
                     functions, and object codes.
F-77                 The F-77, “Report of Potential Evacuees,” is     Excluded because of resource
                     submitted by all Foreign Service posts. The      constraints.
                     reports provide detailed data on the number
                     and location of American citizens and other
                     potential evacuees abroad.


Consular Visa         The visa consolidation program is a strategic   Excluded because of resource
Systems (CVS)d        effort that will transform and modernize the    constraints.
                      systems supporting visa operations
                      domestically at Department headquarters, the
                      Kentucky Consular Center (KCC), the
                      National Visa Center (NVC), and overseas at
                      all visa processing posts.
Executive Agency      The Executive Agency Personnel Support          Excluded because of resource
Personnel Support     (EAPS) system is a Web-based application        constraints.
(EAPS)                used to review, validate, audit, and
                      continuously manage individual agencies’

                                         29
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

                                                                                  Excluded From or Included in
        System                          ITAB Description                                the Final Sample
                           overseas personnel, assignment, and position
                           data.
a
  (SBU) This application was the source of the Wikileaks Department of State documents.
b
   (U) This system had previously been selected for audit as a followup to report Review of Controls and Notification
for Access to Passport Records in the Department of State’s Passport Information Electronic Records System
(PIERS) (AUD/IP-08-29, July 2008) and therefore was not part of the random sample.
c
  (U) Ibid.
e
  (U) This application has since been withdrawn.
(U) Source: OIG analysis.




                                               30
                                   SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

                                                                                             Appendix B

                 (U) Office of Inspector General Reports Related to Audit

        (U) Reports issued by the Office of Inspector General (OIG), Office of Audits, identified
areas of weaknesses in access controls.

          (U) Review of Department of State Information Security Program (AUD/IT-11-07,
           November 2010)

           (U) In this review, OIG found that the application software that controls access to
           OpenNet Everywhere (ONE) software, which is the Department of State’s (Department)
           remote access tool, was configured to allow the use of a non-NIST compliant encryption
           algorithm.1 Additionally, OIG found that ONE was not configured to terminate a user’s
           online session after 20 minutes of inactivity. The Foreign Affairs Manual2 (FAM)
           requires remote access program managers to configure the remote session to terminate
           “after 20 minutes of inactivity.” OIG is awaiting confirmation on the status of the related
           recommendations from the Department.

           (U) Further, OIG found issues with the Department’s continuous monitoring program,
           including access controls around applications. Specifically, OIG found that scanning
           tools used by the Department do not assess Oracle configurations for control weaknesses,
           which could adversely impact application access controls. Scanning results for routers,
           firewalls, and Demilitarized Zone servers are therefore not captured in iPost, the
           Department’s main continuous monitoring tool.

          (U) Review of Controls and Notification for Access to Passport Records in the
           Department of State’s Passport Information Electronic Records System (PIERS)
           (AUD/IP-08-29, July 2008) 

           (U) In this review, OIG found that the Department had not implemented adequate
           controls to prevent or detect unauthorized access, similar to those controls in place at the
           Internal Revenue Service and the Social Security Administration. At those two agencies,
           large amounts of electronic Personally Identifiable Information (PII) are protected by
           access controls, such as having tiered user access permissions for granting access at level
           needed (for example, limited to full), blocking user access from certain records, and
           conducting audits of access activity logs. The related recommendation has not been
           closed as of June 2012.

        (U) OIG’s Office of Inspections issued one report related to the current audit that
identified access weaknesses.



1
    (U) Information Security Program at the Department of State (AUD/IT-11-07, Nov. 2010).
2
    (U) 12 FAM 682.2-3, “Configuring Remote Access Accounts.”
                                                31
                                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

   (U) Inspection of the Bureau of Consular Affairs, Office of Consular Systems and
    Technology (ISP/I-11-51, May 2011)

    (U) Access control weaknesses were noted in this report. One key judgment noted was
    the following: “Access controls for assigning and tracking user accounts in various
    critical systems in the Office of Consular Systems and Technology (CST) need to be
    strengthened.” Specifically, the report noted, among other weaknesses, that Government
    supervisors were not able to verify that contractor Database Administrator (DBA) roles
    and responsibilities accurately reflected their assigned duties. Therefore, the potential
    existed for a developer or DBA to perform other activities such as testing and/or
    migrating changes to production without anyone being aware of these actions, which
    leads to inadequate separation of duties issues. Also, the contractor DBA’s user accounts
    are created and monitored by contractors themselves. Although CST government
    management approval is required at the initial user access request, there is no regular
    Government staff review to ensure that continued access is necessary for contract staff.
    The report identified two recommendations related to access controls that were
    unresolved as of June 2012.




                                     32
                         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

                                                                                      Appendix C

           (SBU) Proposed Net-Centric Diplomacy Security Enhancements
           (SBU) The Net-Centric Diplomacy (NCD) team has initiated an application redesign
   project aimed at enhancing the security posture of NCD. Per a plan of action provided to the
   Office of Inspector General (OIG) by the NCD team (NCD.09.00.00 Plan of Action dated
   February 12, 2012), the purpose of the redesign effort was to make software modifications to
   enhance the security posture of NCD.

       (SBU) The key software security requirements identified and to be addressed in the redesign
   effort included the following:
(b) (5)




                                            33
                                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED

                                                                              (SBU) Appendix D

                                                 United States Department of State

                                                  Washing/on. D. C.   20520

                                                  August 22, 2012




MEMORANDUM


TO :        OIG - Ms. Evelyn Klemstine
            OIG - Mr. Jerry Rainwaters

FROM:       lRM/BMP/SPO/SPD - Robert Glunt ~

SUBJECT: OIG Audit of Department of State Access Controls for Major
         Applications, AUD/IT-12-44, August 2012


The purpose of this memorandum is to provide a response to the subject audit.
lRM comments on recommendations 1, 2, 3, 4, 7, 9 and 10 are attached.

IRM concurs with most, but not all, OIG recommendations associated with the
subject audit. Recommendation 4 references both NCD and SMART-C, so lRM's
response has been split to address NCD and SMART-C, separately.




                                34
                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Audit of the Department of State Access Controls for Major Applications
                                 AUDIlT-12/44
                                  August 2012


Recommendation 1: OIG recommends that the Chief Information Officer acquire
the technical resources and implement the enhancements identified by the Net-
Centric Diplomacy (NCO) team in NCD.09 .00.00 Plan of Action, dated February
12,2012, to ensure that users do not have broader access to cables than what is
required to perform their duties.

IRM Response: IRM concurs with the recommendation to acquire the necessary
technical resources to implement the NCD.09.00.00 Plan of Action. As of June
11, 2012, these resources have been acquired and a full team of developers is in
place and actively working on the NCD.09.00.00 software release.

Certain security enhancements identified in the NCD.09.00.00 Plan of Action -
such as those to ensure users do not have broader access to cabIcs than required to
perform their duties - were implemented in an incremental release to NCO
(version 8.5 .2). This release mitigates the major risks identified in the NCO
Certification and Authorization (C&A) process and allows IRM the authority to
continue operating NCO while moving forward with NCD.09.00.00 development
to address the remaining security enhancements and open defects. The schcduled
release date of this new NCO version is January, 2013 . The original scheduled
release date of NCO .09.00.00 for October 2012 was postponed to address the
major risks identified during the C&A.

Recommendation 2: OIG recommends that the Chief Information Officer
establish standard training requirements for post Classified State Messaging and
Archive Retrieval Toolset (SMART-C) and ensure that system administrators
receive requ ired training before they are assigned and annually thereafter.

IRM Response: IRM concurs with Recommendation 2. FSI established week-
long classroom and long distance system administrator training based on training
requiremen ts from IRM. As well, IRM has developed the draft SMART
Messagi ng Guidebook, currently under review by IRM/BMP/GRP/GP for
publication, which provides specific guidance on the proper handling of sensitive




                                35
                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




captions and cables for translation into RBAC provisioning for each user. There is
also an extensive online catalog of documentation and videos for training.

Additionally IRM will restate its expectation that all system administrators take
FS l's system administrator training and annually re-familiarize themselves with the
material.

Recommendation 3: OIG recommends that the Chief Information Officer
implement logical access controls to ensure that system administrators do not have
the ability to read information within sensitive cables that they do not need to
perform their adm inistrative duties.

IRM Response: IRM docs not concur with Recommendation 3. System
admin istrators have access to all incoming and outgoing messages, the former to
redirect dissemination if required, the latter to ensure compliance with State
Department standards for formatting and application of metadata (e.g., captions).
Because SMART standardizes formatting and metadata, there are fewer messages
that require administrator access. Nonetheless, to ensure the timely delivery of
traffic in the case of user or system error, there is no class of message to which an
administrator can be logically denied access. SMART logs provide a record of
message access through dissemination and search by all employees, including
system administrators. Additionally, administrators at a post can only view and
access incoming and outgoing traffic at assigned posts, they do not have access
outside their post unless specifically granted. A post user can see another post' s
cables only if the SMART administrator at the original post grants them access.

Due to the critical mission functions of Embassies abroad, and the impact upon
safety issues, Foreign Service Information Technology personnel arc required to
have full administrative access to all systems. In the event of local crisis such as
civil disorder, each Foreign Service IT officer must be able to perform each other' s
technical duties.

The same principle applies domestically with respect to core functions of IRM,
such as SMART. Unrestricted administrative access to the SMART database
ensures each administrator can respond in an immediate manner to troubleshoot
issues related to this core function upon which key Department decision makers
are dependent to perform the Depanment's mission critical functions as identified
by the Office of Emergency Management.




                                 36
                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




Recommendation 4: OIG recommends that the Chief Information Officer equip
the Net-Centric Diplomacy (NCO) and Classified State Messaging and Archive
Retrieval Toolset (SMART-C) applications with audit trail capabilities to log user
and administrator activity.

IRM Response: IRM concurs with recommendation 4 in reference to Net Centric
Diplomacy (NCO). As of May 3J , an audit trail capability has been implemented
in NCO. With this capability, NCO administrators arc now auditing the fo llowing
user activities: Login, Logout, File Opened, Read Cable, Print Cable, Search
Query, File Modificd, File Deleted, and File Download. NCO system
administrators receive an Email alert whenever any of these auditable events
exceed a pre-defined limit. If, after analyzing the alerts, any suspicious activity is
identified, users arc prohibited from performing these operations for an
adm inistrator-determined period of time. This allows time to investigate the
activity .

As part of the daily administration of NCO, two system administrators revicw the
aud it logs for each NCO server. They are monitoring the above activities along
with indications of unauthorized changes to the configuration settings and attempts
to execute unauthorized software within the NCD system. The audit logs arc
backed up daily and retained for 6 months in accordance with N1ST requirements
and State Department IT security policy.

IRM concurs with Recommendation 4 in reference to Classified State Messaging
and Archive Retrieval Toolset (SMART-C) . The audit log contains ALL
admi nistrative changes to SMART. Both MSMC and post adm inistrators have
access to the audit log from the main SMART page. The SMART audit log
provides a record of actions performed on the SMART database and allows
administrators (both MSMC and Post) to find actions based on when they
occurred, who performed them, the users affected by them, text within the actions,
and other cri teria.

IRM, in consultation with DS, will continue to seek commercial or custom
solution , but to date has been unable to find a COTS product that will validly
detect anomalies. Commercial systems look for departures from routine practices,
e .g., a credit card user begins charging high-value items in a different country.
However patterns of standard usage among State Department SMART users are so
different that we do not have a norm from which variance might trigger an alert.




                                   37
                       SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




    Recommendation 7: 010 recommends that the Chief Information Officer (ClO)
    require system owners to annually revalidate user and administrator accounts,
    remove those accounts that no longer require access, and certify to the CIO that
    revalidation has been completed .

    IRM Response: IRM substantively agrees with the recommendation. System
    owners will rece ive dear guidance to annually revalidate user and administrator
    accounts and remove those accounts that no longer require access. Additionally,
    this guidance will be incorporated into role-based training for personnel with
    elevated privileges. IRM will continuously monitor stale user accounts to ensure
    that staic user account scoring in iPost occurs at each site level. This will allow
    site level owners to address stale accounts in their organizational units (OU). This
    change in iPost will occUr in October of this calendar year.

    Recommendation 9: 010 recommends that the Chief Information Officer institute
    a formal process to require system owners to certify that the Information Systems
    Security Officer has reviewed audit logs monthly in order to detect and resolve
    potential security incidents in a timely manner.

    IRM Response : IRM agrees with the recommendation . The ISSO and key system
    administrators of owning sites will be required to review audit logs monthly in
    order to detect and resolve potential security incidents in a timely manner.
    Additionally, this guidance will be incorporated into role-based training for
    personnel with elevated privileges.
(b) (5)




                                     38
                         SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

                                                                    SeJ:.lerrlbet 10,2012


TO:            OIG     Ms, Evr,]vn K!e:mstille
                       Mr. Jerry Raillwaters

                     iBlvlP.IS(lISPD   ~   Robert

                                                             Co:ntrc'\s for



Attached        find IRM' 5 updated response to OIG Recommendation 10, cleared by the
Bureaus of 1)11,I",natk S!eeutiryand Con,ular Atrairs,

lRM's res.pol1se to recDmmendadon 3, sent to the OlG on        was cleared    the BUTeau of
DilliOlnal.ic Secl.rir't, without




(b) (5)




                                                 39
                                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

                                                                            (SBU) Appendix E



                                                   United States Department of State

                                                   Washingtml, D.C. 20520

                                                   www.srate.gov


                                                       SEP 07 lOll
SENSITIVE BUT UNCLASSIFIED
(UNCLASSIFIED when separated from attachment)

INFORMATION MEMO TO OIG - DEPUTY INSPECTOR GENERAL
HAROLD W. GEISEL              A....
FROM:       OS - Eric J. Bosw~t::::V

SUBJECT: Compliance Response and OS Comments - Audit of Department of
         State Access Controls for Major Applications, Report AVO/IT -12-44,
         August 2012


      (U) Attached is the Bureau of Diplomatic Security' s comments and follow-
up response to Recommendation 5 of the subject report.

Attachment:
      As stated.




                    SENSITIVE BUT UNCLASSIFIED
               (UNCLASSIFIED when separated from attachment)




                                 40
                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                      SENSITIVE BUT UNCLASSIFIED


             DS Comments to U.S. Department of State and the
                 Broadcasting Board of Governors Office
                    Inspector General Office of Audits
    Audit of Department of State Access Controls for Major Applications
                   Report # AUDfIT-12-44, August 2012

Com men ts & Corrections

  1. (SBU) OIG Report: Table 2, center column, titled "Original and Final
     Samples of the Department's Major Applications," the entry for
     Investigative Management System (lMS-C) reads: (Page 22)

     "IMS·C captures all classified case-related information; automates,
     integrates, and improves OIG 's investigative business processes; establishes
     a central index encompassing all DS classified investigations; and provides
     investigative and/or intelligence analysis and analytical"

     DS Comment (09/06/2012): Please revise the entry to read:

     "IMS·C captures all classified case-related information; automates,
     integrates, and improves DS's investigative business processes; establishes
     a central index encompassing all DS classified investigations; and provides
     investigative and/or intelligence analysis and analytical "




                     SENSITIVE BUT UNCLASSIFIED




                                 41
                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




                 SENSITIVE BUT UNCLASSIFIED

          Audit of Department of State Access Controls for
                        Major Applications
               Report # AUD/IT-12-44, August 2012
(b) (5)




                SENSITIVE BUT UNCLASSIFIED




                            42
                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                                                               (SBU) Appendix F



                                                          Uoited States Department of State

                                                         Assistant Secretary olState
                                                         lor Consular Affa irs

                                                          Washington, D.C. 20520

UNCLASSIFIED                                              August 16,2012

MEMORANDUM

TO:          OIG - Harold W. Geisel, Acting

FROM:        CA - James D. Pettit, Actin~

SUBJECT: Compliance Response to OIG Inspection on Audit of Department of
         State Access Controls for Major Applications AUDIIT- 12-44

      Thank you for the opportunity to submit a compliance response for Audit of
Department of State Access Controls for Major Applications. CA is an
action/coordinating entity on Recommendation 8. We have reviewed the
recommendation in the report and have the following update:

Recommendation 8: The OIG recommends that the Bureau of Consular Affairs
(CA), Office of Consular Systems and Technology, provide additional guidance to
key users of CA 's applications at post to ensure that consular managers and other
key users of those applications understand administrative features related to
creating and managing user accounts for consular applications. (Action: CA)

CA Response August 16,2012: CA agrees with the recommendation. CA's Office
of Consular Systems and Technology and Office of the Executive Director are
working to develop standard guidance for consular managers and key application
users to safeguard the integrity and accountability of consular processes. CA has
looked in to consolidating existing user roles, and is developing guidance that will
outline clear and consistant instructions for each role.

CA will establish consistent procedures for regularly reviewing, validating, and
decommissioning user accounts, as well as adding, deleting, and modifying user
roles to ensure all users have appropriate access based on clearance level,
citizenship status, organization, and need to know.




                                UNCLASSIFIED




                                  43
                      SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED


                                                                        (SBU) Appendix G

                                                       United States Department of Sta

                                                       Washington, D.C. 205]0




MEMORANDUM

TO:          IG - Mr. Harold W. Geisel, Acting

FROM:        DGHR - Linda    ThOmaS-Greenfield ~
SUBJECT: Draft Report - Audit of Department of State Access Controls
         for Major Applications


Thank you for the opportunity to provide comment regarding the
above-named OIG audit report draft. We would like to take this
opportunity to respond to Recommendation 6.

Recommendation 6: OIG recommends that the Bureau of Human
Resources institute a formal process to notify system owners on a monthly
basis of employee departures to ensure the timely removal of accounts of
departing or transferring employees.

DGHR Response:
Since 2010, HRlEX, through coordination with the office of the Managing
Director ofCGFS/DCFO (at that time RM/DCFO), has been submitting a
monthly Separations Report to all system owners for appropriate action.
DCFO regularly provides HRlEX with updates to the system owner
distribution list. This list includes designated points of contact as
determined by System and Business Managers throughout the Department.

At the time of origin, the Report was based upon the effective Date of
Separation as recorded in the Global Employment Management System,
GEMS. Due to the appearance of a gap in the data when individual actions
were not processed in a timely manner by bureaus, HR/EX revised the report
logic so that, since January 2012, it has been based upon the processed date.
The report, of course, continues to show the effective date so that system
owners can take proper action.




                              44
                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Due to the fact that the requested HR report is in place and is distributed to
system owners on a monthly basis, DGHR respectfully requests that this
recommendation be removed or closed.




                               45
                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


(U) Major Contributors to This Report

(U) Jerry Rainwaters, Director
Division of Information Technology
Office of Audits

(U) Isaac Apea, Audit Manager
Division of Information Technology
Office of Audits

(U) Steve Matthews, Technical Lead/Audit Manager
Division of Information Technology
Office of Audits

(U) Oludayo Onafowokan, Senior IT Auditor
Division of Information Technology
Office of Audits

(U) Jamie Horvath, Senior IT Auditor
Division of Information Technology
Office of Audits

(U) Ernie Arciello, Statistician
Division of Audit Operations
Office of Audits

(U) Audrey Urbanczyk, Writer-Editor
Division of Audit Operations
Office of Audits




                                          46
                              SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
